<html>
<title> - UNITED STATES DEPARTMENT OF JUSTICE OFFICE OF JUSTICE PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]







                  UNITED STATES DEPARTMENT OF JUSTICE 
                       OFFICE OF JUSTICE PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 2, 2011

                               __________

                           Serial No. 112-146

                               __________

         Printed for the use of the Committee on the Judiciary





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://judiciary.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

71-054 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             [Vacant]
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

BOB GOODLATTE, Virginia              ROBERT C. ``BOBBY'' SCOTT, 
DANIEL E. LUNGREN, California        Virginia
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
TED POE, Texas                       HENRY C. ``HANK'' JOHNSON, Jr.,
JASON CHAFFETZ, Utah                   Georgia
TIM GRIFFIN, Arkansas                PEDRO R. PIERLUISI, Puerto Rico
TOM MARINO, Pennsylvania             JUDY CHU, California
TREY GOWDY, South Carolina           TED DEUTCH, Florida
SANDY ADAMS, Florida                 SHEILA JACKSON LEE, Texas
MARK AMODEI, Nevada                  MIKE QUIGLEY, Illinois
                                     [Vacant]

                     Caroline Lynch, Chief Counsel

                     Bobby Vassar, Minority Counsel















                            C O N T E N T S

                              ----------                              

                            NOVEMBER 2, 2011

                                                                   Page

                           OPENING STATEMENTS

The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Vice-Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     6

                               WITNESSES

The Honorable Laurie Robinson, Assistant Attorney General, Office 
  of Justice Programs, U.S. Department of Justice
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9

                                APPENDIX
               Material Submitted for the Hearing Record

Response to Questions for the Record from the U.S. Department of 
  Justice........................................................    36

 
     UNITED STATES DEPARTMENT OF JUSTICE OFFICE OF JUSTICE PROGRAMS

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2011

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                             and Homeland Security,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Louie 
Gohmert (Vice-Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Gohmert, Goodlatte, 
Chaffetz, Gowdy, Amodei, Scott, Conyers, Cohen, Pierluisi, Chu, 
and Quigley.
    Staff Present: (Majority) Caroline Lynch, Subcommittee 
Chief Counsel; Harold Damelin, Counsel; Allison Rose, 
Professional Staff Member; Sarah Allen, Counsel; Arthur Radford 
Baker, Counsel; Lindsay Hamilton, Clerk; (Minority) Aaron 
Hiller, Counsel; and Veronica Eligan, Professional Staff 
Member.
    Mr. Gohmert. The Committee will come to order. Welcome to 
oversight hearing on the United States Department of Justice 
Office of Justice Programs. I would especially like to welcome 
our witness. Thank you for being here, Ms. Robinson, and for 
everyone else that joined us here today.
    I am also joined today by distinguished Ranking Member of 
the Subcommittee Bobby Scott and by the most recent Chairman 
emeritus John Conyers from Michigan.
    At this time we will begin the hearing. This is an 
oversight hearing of Office of Justice Programs at the U.S. 
Department of Justice, which obviously you have most recently 
headed since January 2009. I know this is not the first time 
that you were there as head of OJP when you previously served 
in that role during the Clinton administration from 1993 to 
2000. With almost a decade of experience as the head of OJP, 
you are surely equipped to engage in discussion on the various 
OJP programs.
    Since it was established in 1984, OJP has been the 
Department's primary grant for awarding agency through six 
separate program offices and bureaus. OJP provides grants 
intended to improve the company's capacity to prevent and 
control crime, improve the criminal and juvenile systems, 
increase knowledge about crime and related issues, and assist 
crime victims.
    From October 2008 through September 2011, OJP made over 
17,000 grant awards totaling $9.8 billion in the criminal 
justice field, including Federal, State, local and tribal law 
enforcement agencies and private community organizations. OJP 
currently manages over 50 different grant programs. While a 
number of these programs serve a useful purpose within the 
entire criminal justice context, in these very difficult 
economic times where the Federal Government must drastically 
reduce its spending we simply cannot continue to allocate 
resources without verifying that they are being used as 
effectively as possible and that it is for a legitimate Federal 
role.
    To that end we need to ensure that the programs we are 
funding are accomplishing their intended purpose, that the 
programs are still necessary and not outdated, and we are not 
funding multiple programs with the same intended purpose, that 
there is adequate communication between various grant making 
offices so we are effectively leveraging our resources, that 
grant recipients are not using funds in a wasteful or 
fraudulent manner, that OJP is capable of and is in fact 
engaging in effective, aggressive grant oversight, and that the 
roles are our constitutional responsibility of Congress.
    It is in this context that we examine OJP's performance. 
Both the Justice Department's Inspector General and the GAO 
have identified what I consider to be a number of significant 
problems with respect to OJP. For example, in October 2010 GAO 
found the performance measures being used by OJP to assess 
whether the goals of the Byrne JAG program were being met and 
were not appropriate and needed to be revised. GAO also found 
that OJP did not have a process in place to validate the 
integrity of the Byrne JAG recipients' self purported 
performance data.
    Given this Byrne JAG program is one of the largest grant 
programs at DOJ, this is a serious problem that must be 
addressed. It is essential that we are able to determine the 
effectiveness of OJP's grant programs in deciding whether to 
continue funding them.
    I hope you will explain why it took GAO to point out that 
these serious program deficiencies exist at OJP.
    I am concerned by the IG's findings regarding OJP's 
oversight of the Southwest Border Prosecution Initiative. Since 
2002 it has been OJP's responsibility to oversee this 
reimbursement program. In a 2008 report the IG was very 
critical of OJP oversight efforts. OJP promised to implement 
the changes recommended by the IG, but when the IG came back 2 
years later, 2010, to review how OJP was doing, they continued 
to find major weaknesses in the management and oversight of the 
program.
    Specifically the IG noted that there were red flags that 
were missed by OJP. The IG found that $12.3 million, or 85 
percent, of the reimbursements allowed by OJP were unallowable 
or unsupportable. An 85 percent error rate is simply not 
acceptable when handling taxpayer money. We look forward to 
hearing your explanation on why OJP could not properly manage 
this program and what is being done to correct the problem.
    Additionally, GAO and IG reports have highlighted a serious 
lack of coordination between DOJ and other agencies, including 
the Department of the Interior, regarding how Federal money 
should be spent. These reports also show serious violations of 
grant requirements by the recipients, ranging from very 
significant amounts of unsupported or unallowable expenditures, 
failure to monitor subgrantees, the sloppy or nonexistent 
recordkeeping, and failure to file required reports adequately 
in a timely manner. In some cases grantees were found to have 
misused millions of dollars.
    These stories, while never acceptable, are even less so in 
today's climate. OJP is currently responsible for over 14,000 
active grants and these IG reports all issued fairly recently 
cause me to wonder what grant monitoring procedures OJP has in 
place that allowed these type of abuses to occur.
    As we move forward, these problems need to be addressed and 
corrected during the life of the grant, not after the grant 
funds have been expended and the IG comes in to do an audit. In 
this regard there are serious concerns about OJP's high risk 
grantee list. While this list in place since only 2009 is 
presumably intended to help monitor grantees who may be 
misusing Federal funds, it appears that in reality the list 
does very little. Even if an OJP grantee finds its way onto 
this list they are still permitted to receive additional grants 
while on the list and can have funds from any current grants 
disbursed as well.
    In addition, OJP has never referred any high risk grantee 
for suspension or disbarment. This strikes me as a sign of very 
weak grant oversight at best.
    The acting IG testified this past June before another House 
Subcommittee on the topic of Federal grant program oversight. 
In the course of her testimony she noted that their audit work 
has continued to identify areas where the Department could 
further improve its management of grants, particularly in terms 
of the Department's processes for awarding grants and its 
oversight of grantees.
    The IG has also suggested that OJP along with the COPS 
office and Office of Violence Against Women needed to be more 
responsive in addressing outstanding audit recommendations to 
resolve questioned costs from audits or grantees. The IG noted 
that in some instances the Department takes years to implement 
an audit recommendation. These are also serious issues pointed 
out by the IG, and we would like to know what you have done to 
address them.
    In addition to these grant management and oversight issues, 
we are also very concerned about the IG's findings in a recent 
audit of Department of Justice Conference planning and food and 
beverage costs. The IG examined 10 department conferences, four 
of which were put on by the OJP. Regarding these four 
conferences, the IG found that OJP spent over $530,000 for an 
event planner.
    Five of the other six conferences examined by the IG were 
put on internally and did not even use an event planner. Why 
did OJP need to hire an event planner when that is clearly not 
the norm at DOJ?
    Three of these OJP conferences held in Palm Springs, 
California, a lovely city, but nonetheless the event planner 
used by OJP came from Anchorage, Alaska and was awarded the 
contract without the benefit of an open solicitation. We would 
like to know what was so special about this event planner that 
the contractor had to be sole sourced.
    The IG questioned many of the costs associated with the 
event planner. For example, the event planner held a conference 
planning meeting at the direction of OJP for 36 people in Palm 
Springs, California for about a year before the conference took 
place. This was done despite the fact that the contract 
documents stated that such a face-to-face meeting was not 
necessary in order to put on the conference. It appears to me 
this was a total waste of taxpayer dollars.
    As we move forward we must spend our money wisely for only 
those OJP programs proven to be effective. Additionally, your 
office has an obligation to ensure that the grant recipients 
are complying with the conditions of the grants and spending 
the money they received appropriately.
    I look forward to hearing your testimony today, and with 
that would yield to the Ranking Member, Mr. Scott.
    Mr. Scott. Thank you, Mr. Gohmert. Good morning, I am 
pleased to join you this morning for this very important 
oversight hearing on the Office of Justice Programs and am 
pleased to hear from the Assistant Attorney General Laurie 
Robinson, who you appropriately introduced as a very well 
qualified and effective leader in the Department of Justice.
    As you know, the Office of Justice Programs is charged with 
working in partnership with the justice community to identify 
the most pressing crime related challenges confronting the 
justice system and to provide information, training, 
coordination and innovative strategies and approaches for 
addressing these challenges.
    The Office of Justice Programs is comprised of six 
different components, including the Bureau of Justice 
Assistance, the Bureau of Justice Statistics, the National 
Institute of Justice, the Office for Victims of Crimes, the 
Office of Juvenile Justice and Delinquency Prevention, and the 
Sex Offender Sentencing, Monitoring, Apprehending, Registering 
and Tracking Office.
    Because of limited time I want to focus on the area of 
juvenile justice and delinquency prevention, and perhaps get to 
other areas during the questioning. The juvenile justice system 
in this country needs help. In any given night in the United 
States almost 10,000 children are held in adult jails and 
prisons where they are particularly vulnerable to physical and 
sexual victimization because of their size and youth.
    The Centers for Disease Control has added its voice to the 
chorus of researchers who have reported that after release 
children who are incarcerated in adult prisons commit more 
crimes and more serious crimes than children with similar 
histories held in juvenile facilities. And while juvenile 
facilities are better than adult facilities, generally there 
are far too many problems even in the juvenile facility. Nearly 
100,000 children, some as young as 10 years old, are confined 
to juvenile detention in residential facilities, many of which 
are plagued with harsh and abusive conditions.
    Just last year the Bureau of Justice Statistics pursuant to 
the Prison Rape Elimination Act reported that 12 percent of 
juveniles in publicly and privately run facilities reported 
incidences of sexual abuse primarily by facility staff.
    The Department of Justice can make an immediate critical 
difference of youth custody by promulgating a final rule to 
enforce the national standards to prevent, detect and respond 
to prison rates that would require the removal of youth under 
18 from adult jails and prisons. I would like to hear what is 
happening to those rules and regulations.
    The over representation of minority youth continues to be a 
challenge. Additionally, African American youth are confined in 
facilities at a rate over three times that over White youth. In 
addition, minority youth more likely to be sent to public 
rather than private correctional facilities and are more likely 
to be housed in the most secure facilities. The Federal 
Juvenile Justice and Delinquency Prevention Act of 1974 
requires that States determine whether the proportion of 
minorities in confinement exceeds their proportion in the 
population. And if there is such over representation, States 
must demonstrate that they are appropriately addressing that 
problem. So I would like to know where we are in that regard.
    Of course one huge concern is the proposals for reductions 
of juvenile justice funding. One of the concerns is that the 
core requirements of the 1974 JJDPA act may be in jeopardy if 
States do not receive enough funding to make it worth their 
while to comply with the requirements because the sanction for 
violation is reduced funding. If there is not enough funding 
they will not have the appropriate incentives to comply.
    I would like to know--one kind of ongoing problem is a 
question of when we can expect an administrator to be named to 
the Office of Juvenile Justice and Delinquency Prevention. I 
find it troubling that 3 years into the Administration there 
has been no one confirmed to lead this Federal home for 
juvenile justice and to be speaking out on behalf of our 
children.
    Despite the existence of evidence based and proven programs 
who are seeing funding for them cut in the budget situation we 
are facing today, clearly this is penny wise but pound foolish 
given that many of these programs save much more money than 
they cost in avoiding criminal justice and social welfare 
spending.
    That is why I introduced the Youth PROMISE Act which I know 
the Attorney General is supportive of, and to provide this kind 
of evidence based and cost saving program and to get young 
people on the right track and keep them on the right track.
    I am very pleased to see that there are positive steps that 
have been taken on behalf of our youth, particularly with the 
National Forum on Youth Violence Prevention and the Defending 
Childhood Initiative. I was also pleased to articipate in the 
OJJDP national conference held October 12th through 14th, and 
thrilled that over 3,000 people who registered for that program 
at their own expense were able to participate.
    So I look forward, Madam Assistant Attorney General, to 
your testimony and to continued work on how we can get young 
people on the right track and keep them on the right track.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gohmert. Thank you, Mr. Scott.
    It is now my pleasure to introduce today's witness. Laurie 
Robinson has served as----
    Mr. Conyers. Pardon me, Mr. Chairman.
    Mr. Gohmert. Absolutely, the Chairman emeritus, John 
Conyers of Michigan.
    Mr. Conyers. Thank you, Mr. Chairman. I won't take long, 
but I wanted to join in welcoming our distinguished witness, 
Attorney Robinson. Just to refresh the memory of some of the 
Members on the Subcommittee, the program of the National Forum 
on Youth Violence was conducted in six cities and I am very 
proud to say that Detroit was one of those cities that was 
visited. And although the Deputy Attorney General wasn't there, 
Attorney Tom Abt, her assistant, was in Detroit. And we had an 
incredibly meaningful sight. They met in my Congressional 
district at the Boys and Girls Club, and the mayor of the City 
of Detroit, Dave Bing, was there. The U.S. Attorney for the 
Eastern District of Michigan, Ms. Barbara McQuade, was there. 
Michael Strautmanis, a deputy in the White House, was there 
himself. And they were in total at five other cities dealing 
with this question of youth and violence prevention. After the 
hearing they made tours around the city. This forum was also in 
Chicago, Boston, San Jose, Salinas, and Memphis. And this was 
all last month. We think this commitment to attending this 
question of youth violence in urban areas is of incredible 
importance. We wanted to thank you for the work that is being 
done in the Department of Justice in that regard.
    Now the budget constraints that have limited you so far are 
restraints that have come from the U.S. Congress. And so I wish 
we could reiterate and I hope that you will make clear, indeed 
if you have to submit additional materials--just what the 
funding picture is--that we need to be appreciative of to know 
how to deal with the budgetary issues in your department within 
DOJ.
    And finally, I just have to recall to Judge Gohmert, our 
Chair today, that some of the problems that he described took 
place during the years 2005 to 2008, a time in which I don't 
think you were--well, I don't know where you were then, but I 
know you weren't in the position that you are now with the 
responsibilities that require you to come before our Committee. 
But under your leadership I do know the Office of Justice 
Programs has begun to correct itself and move forward, and it 
is in that sense that I join the Chairman and the Ranking 
Member Bobby Scott in welcoming you to this hearing today.
    Thank you, Mr. Chairman.
    Mr. Gohmert. Thank you. We appreciate that. I certainly 
noted that some of these problems arose before 2008, that 
certainly wouldn't be your responsibility. And of course one of 
the things that endeared me so to the current Republican 
leadership is my constant pointing out of problems that 
occurred on our watch. It might be noted that I am actually 
Vice-Chairman of this Committee. It may have something to do 
with that.
    But anyway we appreciate your being here today. Ms. 
Robinson served as Assistant Attorney General for the 
Department of Justice, Office of Justice Programs since 2009. 
Ms. Robinson has previously served as Assistant Attorney 
General from 1993 until early 2000. From 2004 to 2009 Ms. 
Robinson served as the Director of the Master of Science 
Program in the University OF Pennsylvania'S Department of 
Criminology. Between 2001 and 2009 she also served as a 
Distinguished Senior Scholar in the university's Jerry Lee 
Center of Criminality and as Executive Director of its Forum on 
Crime and Justice.
    Prior to joining the Department of Justice in 1993, Ms. 
Robinson was the Director of the ABA's, American Bar 
Association's, Section of Criminal Justice for 14 years, where 
she founded the ABA's Juvenile Justice Center. Ms. Robinson is 
a graduate of Brown University.
    She has a written statement that will be entered into the 
record in its entirety. We ask that you would summarize that 
statement in 5 minutes or less and appreciate again your being 
here. We know that the pay is not that good for witnesses 
coming before Congress. And for anybody who doesn't know, there 
is no pay.
    Anyway I do now recognize Ms. Robinson, please.

TESTIMONY OF THE HONORABLE LAURIE ROBINSON, ASSISTANT ATTORNEY 
GENERAL, OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE

    Ms. Robinson. Mr. Gohmert, thank you so much, and Ranking 
Member Scott and the distinguished Members of the Subcommittee 
for having me here today.
    I am very pleased to have the opportunity to discuss with 
you the priorities in the work of the Office of Justice 
Programs.
    OJP's mission is to increase public safety and improve the 
fair administration of justice across America through 
innovative programs and leadership. The resources we provide 
are critically important, especially in challenging times when 
public safety professionals face shrinking budgets.
    When I was confirmed 2 years ago I announced three goals: 
First to support State, local and tribal criminal and juvenile 
justice practitioners through innovative partnerships; second, 
to expand our base of knowledge about what works to address 
crime and better communicate that to the field; and, third, to 
address the issues, Mr. Gohmert, that you had raised about our 
obligations as stewards of Federal funds. That is so important, 
and I can report on progress in each of these areas.
    Tight budgets at every level of government have clearly 
made it harder for jurisdictions to tackle their crime problems 
alone. Since returning to OJP I have sought to expand 
partnership with our stakeholders, and our work has paid off. 
Both Mr. Scott and Mr. Conyers have mentioned our National 
Forum on Youth Violence Prevention. This is a cooperative 
effort across levels of government and across Federal agencies 
to address youth and gang violence. The investment of Federal 
funds in the forum is modest. It is not about new spending, but 
it is about leveraging existing resources and making those 
public dollars go further.
    I am also proud of our progress building our base of 
evidence and getting information about what works out to the 
field. Last November the Attorney General appointed an 18-
member Science Advisory Board to help guide these efforts. And 
in 2009, I launched an OJP-wide Evidence Integration Initiative 
to improve our knowledge about effective practices and then get 
that information out to practitioners on the front line.
    As part of that initiative, in June we launched a new Web 
site called CrimeSolutions.gov. It is a ``what works 
clearinghouse'' with more than 150 programs assessed from 
research for their effectiveness. And next year we open a State 
and local help desk. It is a Diagnostic Center to serve as a 
``one stop shop'' to help those implementing evidence based 
approaches.
    And finally, we are working hard as a top priority to 
fulfill the trust the American taxpayer has placed in us to 
manage public funds. During my confirmation hearing I said that 
addressing waste, fraud and abuse would be a top priority. So 
we have been actively working to strengthen internal controls.
    As you said, Mr. Gohmert, we currently manage almost 14,000 
grants, totaling almost $10 billion. Yet we consistently exceed 
our statutory monitoring requirements. Last year we monitored 
more than twice the amount required by law, and the 
Department's Inspector General has pointed out the positive 
steps we are now taking to improve our grant management 
practices. Earlier this year she called our work--in testimony 
before Congress--she called our work to implement the Recovery 
Act ``extraordinary' and that is an unusual term for the IG to 
use.
    We have also found ways to minimize cost. In fiscal year 
2011 we, within OJP, cut staff travel expenses by 39 percent 
from the prior year. And we saved $2 million through freezes or 
hiring promotions and staff training, again $2 million, and 
reassessed our IT contracts to save $5 million.
    We have specifically taken a number of steps to limit costs 
related to training and conferences for the field. Even before 
the IG's September report on conference costs we had already 
taken measures to limit spending in this area--even before the 
report came out. And since it came out, we have taken 
additional steps, including a new policy I announced October 21 
prohibiting all food and beverage costs under OJP grants and 
contracts, except in the most extraordinary circumstances.
    While we have acted aggressively to reduce these costs, I 
think it is also important to remember that training 
conferences for the field are indispensable to meet our 
statutory mission of sharing information and providing 
assistance to the criminal and juvenile justice field.
    Mr. Conyers. Mr. Chairman, can the witness be given a 
couple additional of minutes, please?
    Mr. Gohmert. Without objection, please continue.
    Ms. Robinson. I am about to wrap up.
    Mr. Gohmert, OJP's effectiveness and credibility I think 
depend on our ability to account for the dollars we administer. 
I take that responsibility very seriously and look forward to 
working with you and the Subcommittee to ensure our programs 
meet the high standards you expect and the American people 
deserve.
    Thank you so much, and I look forward to your questions.
    [The prepared statement of Ms. Robinson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               __________
    Mr. Gohmert. Thank you, Ms. Robinson. We now continue with 
5 minutes of questions from each Member. And I reserve my 
questions for later so we can move on. I yield 5 minutes to Mr. 
Scott.
    Mr. Scott. Thank you, Mr. Chairman. Ms. Robinson, I 
understand that the Bureau of Justice Statistics is undertaking 
a study of youth in adult court. Only 13 States collect that 
data today, so it is extremely important so we know what is 
going on. Do you have information on this study that you can 
reveal now or would you like--I would like some information on 
that. Could you do that now or for the record?
    Ms. Robinson. Mr. Scott, I don't have that information at 
this time. I know this is an area of very great interest and 
focus for them. But we would be happy to get that information 
for you for the record.
    Mr. Scott. Thank you.
    You talked about stewardship. There was great fanfare about 
the $16 muffins. Can you tell us what that was about?
    Ms. Robinson. Yes, I would be happy to talk to you about 
the steps that we have taken relating to conference costs. 
First of all, the Department of Justice strongly shares the 
concern of the Inspector General and of all of you, really of 
all Americans, about using tax dollars wisely and the 
importance of not tolerating wasteful spending. This is 
something the Department has focused on for some time.
    For example, in May of 2009 the Deputy Attorney General 
issued a memo to all of the Department about limiting 
conference costs. And then in January of this year the Attorney 
General issued a memo across the board urging limitations on 
spending not just in the conference area, but relating to staff 
travel, to training, to a variety of things, and also placed a 
freeze on hiring. And the savings that I noted in my opening 
statement really derive from the steps that we took in response 
to that.
    Even before the Inspector General report was issued, we 
took aggressive action at OJP to respond to this area, because 
we work very closely with the IG, and during their work with us 
in the investigation we were aware of their concerns in working 
with them.
    I would note that the conferences in the report all took 
place, as Mr. Conyers has alluded to, before I had come to OJP. 
It doesn't mean it is not an area of concern.
    Mr. Scott. Let me ask a more specific question. $16 
muffins, is it true that that was an absolute miscalculation, 
that the cost included the room and a lot of other expenses, 
not just the muffins?
    Ms. Robinson. Apparently that is the case. This was not an 
OJP conference, but the IG did issue a retraction on that last 
week.
    Mr. Scott. Thank you. Can you tell us the status of the 
Prison Rape Elimination Act regulations as they pertain to 
juveniles?
    Ms. Robinson. Yes, I can tell you the following 
information. As you know, a number of questions were released 
with the draft regulations that were issued earlier this year. 
I think there were 64 questions put out for comment. This is 
being handled not by OJP but by a different part of the 
Department, and hundreds and hundreds of comments were 
apparently received in response to those 64 questions. Those 
are now under review, as I understand it, by the Department. I 
am told that the final regs will be finished in the near 
future; then they have to go to OMB for final review. I have 
not seen them. I don't know what is in them.
    Mr. Scott. Six cities, as the gentleman from Michigan 
mentioned, received planning grants under the Promise 
Neighborhoods. Can you tell us what the importance of the 
planning is before you get into a comprehensive program, the 
value of planning and how evaluation and evidence will be 
considered? Not on evidence based in terms of what they do but 
also evaluation to make sure they are effective.
    Ms. Robinson. Yes, I think that we have seen in all of 
these community based programs, and this really goes back to 
the beginning of the LEAA program, which was the predecessor 
program to OJP. As you well know, that comprehensive plan--
bringing all parties to the table, all interested multi-
disciplinary groups--is the way to ensure that programs really 
can make a difference, because having all of the interested 
parties together with all interests at the table and 
considering all of the data that needs to be on the table at 
the same time, will ensure a data driven approach and will also 
ensure, as you have pointed out, that evaluation is considered 
from the beginning. You can't really evaluate a program after 
the fact unless you have that in place at the outset.
    Mr. Scott. How do you ensure that evaluations will actually 
take place? Is that part of the grant process, that you have to 
have an evaluation of your program after the fact?
    Ms. Robinson. With the Promise Neighborhoods I don't know 
if that is built in, but it should be because that is something 
throughout the Administration that we are trying to ensure.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Gohmert. Thank you, Mr. Scott. At this time we will--
Mr. Amodei, are you ready to ask questions?
    Mr. Amodei. I yield my time back, Mr. Chairman.
    Mr. Gohmert. Okay. Then Mr. Conyers for 5 minutes.
    Mr. Conyers. Thank you, Judge Gohmert. I appreciate your 
coming before the Committee today. This area that you are in, 
Assistant Attorney General Robinson, is critical. How we deal 
with young people that too frequently in our society can get 
caught up in peer pressure, the gangs and ultimately into 
conduct, violent conduct. And I note that you were the Chair of 
the Vera Institute of Justice and that you were in this work 
when Janet Reno used to come before this Committee and sit 
exactly in the chair that you did in this same room. If you 
could take a few minutes to reflect on this journey that we 
have all been going through in dealing with this very 
critically important area of our society in terms of how we 
approach the youngsters, and if there have been schools of 
thought that have come and gone in the course of your 
experience, I would be happy to hear about it.
    Ms. Robinson. Well, thank you for the question, Mr. 
Conyers. I would say that the main takeaway I would share is 
that there is now in this country in the criminal justice field 
and the juvenile justice field a common understanding. And we 
see this reflected in the National Forum on Youth Violence, in 
fact, and we see it reflected across law enforcement and across 
people in prevention work, and we see it from the mayors, and 
we see it from those in youth work--that a balanced approach is 
needed, that you need to have law enforcement at the table and 
people involved in social services and prevention, that no one 
approach alone can make a difference.
    The one thing since the 1990's on which there is now 
greater focus is the back end with reentry, and that is the 
additional element that we see brought to the table. So the 
balanced approach, a data driven approach and a multi-
disciplinary one, I think, are the three elements that we would 
see as key, and there is such a consensus around this from 
every part of system.
    Mr. Conyers. Now the LEAA, the Law Enforcement Assistance 
Administration, started back in 1968.
    Ms. Robinson. Correct.
    Mr. Conyers. And I was wondering if there were differences 
between what happened then and what is happening now under OJP 
under your administration?
    Ms. Robinson. It is interesting that you ask that. I don't 
know if there are many people around who are as much students 
of the history of the program as much as I am.
    Mr. Conyers. Well, when I came here the Chairman was Peter 
Rodino of New Jersey.
    Ms. Robinson. I recall. LEAA had a much greater emphasis on 
the comprehensive planning in its distribution of formula 
grants to the States than the OJP JAG Byrne funding has had 
traditionally. We have tried in working with the National 
Criminal Justice Association to return to a greater emphasis on 
that comprehensive planning, and the NCJA, the National 
Criminal Justice Association, has been a good partner in that.
    I think that is particularly important at a time of 
tightened budgets because of the need to think through how 
spending is directed. That would be one critical difference, I 
think.
    Mr. Conyers. Mr. Chairman, could I get an additional 2 
minutes?
    Mr. Gohmert. Without objection.
    Mr. Conyers. Thank you, sir.
    I wanted you to comment out of your wealth of experience, 
Madam, on the whole ``lock 'em up and throw away the key'' 
strategy. There still exists here some very serious divergent 
schools of thought; namely, you punish kids, you put them away, 
ignoring the fact that frequently they come out worse than when 
they went in. And the connecting observation to this is the 
fact that minority youth are disproportionately incarcerated as 
they are brought into the juvenile justice system.
    Do you notice any awareness of the fact that frequently 
they are the most ID'd, they are most frequently arrested, most 
frequently prosecuted, most frequently get the longest 
sentences, and most frequently end up as enemies of society by 
this process that I have been describing?
    Ms. Robinson. This is certainly an area that the Office of 
Juvenile Justice and Delinquency Prevention has addressed over 
a good deal of time under the disproportionate minority contact 
focus within that office, that initiative. So yes, there has 
been a great deal of attention to that. And I think that the 
juvenile justice systems in many States have addressed that, 
Mr. Conyers.
    Mr. Conyers. I hope you keep working on it because I am 
going to be; me and my staff are going to be in contact with 
you about it.
    Thanks, Chairman Gowdy.
    Mr. Gowdy. [presiding.] I thank the gentleman from 
Michigan.
    Ms. Robinson, good morning, welcome.
    Ms. Robinson. Good morning.
    Mr. Gowdy. There is a quote from you in 2007 where I think 
you accurately said particularly at a time of tight budgets we 
need to be investing in evidence based approaches that can 
actually help reduce crime and we need to stop funding programs 
that don't work. I would add to that at some level we are going 
have to have more of a conversation about what is an 
appropriate role for the Federal Government juxtaposed with 
what is appropriate for State governments. And it is not a 
question of whether you place value on a program or an 
initiative.
    The examples I guess, at least to my mind, would be in the 
area of DNA testing. If a State is willing to invest its own 
money, hypothetically Virginia, South Carolina, Michigan is 
going to invest its own money in coming up with a state-of-the-
art DNA lab and other States are not, why would the Federal 
Government incentivize or reward States who don't meet what is 
a fundamental responsibility of the criminal justice system, 
which is testing their evidence? Why would that not be a 
program that you would say, okay, States, that is a State 
function whether you like it or not, your budgets are tight, 
our are tighter, you are going--I think I saw a note we are 
actually doing away with funding for the forensic science 
grants; is that right?
    Ms. Robinson. There are two different kinds of 
appropriation lines relating to this in our budget, one is the 
Paul Coverdell grants.
    Mr. Gowdy. Right.
    Ms. Robinson. Which we recommended not be funded in the 
budget last year. So we were looking for areas to reduce 
funding. And then there is the DNA testing, which is more the 
forensics area, which includes funding to look--and I will give 
you an example more on the science end--to look for ways to 
actually speed the process and look for more the science way to 
expedite ways that States are doing it.
    But I would make the point the vast majority of the testing 
in the labs is already paid for at the State and local level. 
So I agree with you. It is an inherently State and local 
responsibility. And as you well know as a former prosecutor at 
the local level, 95 percent of criminal justice occurs at the 
State and local level.
    Mr. Gowdy. And even though I love my State and I am very 
proud of it, we fought a battle as a local prosecutor getting 
the State legislature and others to prioritize what are the 
functions of State government. And it just strikes me as kind 
of counterproductive when the Federal Government comes in and 
rescues those States that aren't willing to have that debate.
    Let me offer a worked of compliment to you. I think there 
are at least a couple of programs I am familiar with in my own 
former district which is now a congressional district. Lynn 
Hawkins' Rape Crisis-SAFE Homes. South Carolina was number one 
in the country in men killing women in 2000. And because of her 
work through some help I believe from the Department of Justice 
through a grant she has made remarkable progress.
    One area where I don't see funding and maybe it is because 
I missed it, children advocacy centers, intervention programs, 
youth at risk programs. We can debate whether those work or 
not, some may, some may not. What is nondebatable is the 
success of the Children Advocacy Center and raising the 
conviction rates in child sex cases.
    So what is DOJ doing with respect to the children advocacy 
centers that are fighting for funding in these austere times.
    Ms. Robinson. No, we have funded Child Advocacy Centers 
definitely through our Juvenile Justice Office, so we have 
provided that funding. And if I may, can I go back to the DNA 
for a moment?
    Mr. Gowdy. Sure.
    Ms. Robinson. The kind of thing I find very exciting is 
through our National Institute of Justice, where we are doing 
some experimentation. I will give you an example from 
Baltimore. We are providing funding to the Baltimore Police 
Department and they are working with an academic institution 
with Yale and with a private company, as well, to test out 
digital technology, to go actually to the crime scene to sample 
DNA technology right there. And what they can do, and I am not 
an expert in this technology at all so I hope I am describing 
it correctly, but to get a smaller number of samples that they 
then, with this digital technology, process more quickly and 
less expensively. And I am told that it could really 
revolutionize the way we collect and process DNA technology to 
make it much quicker and less expensive.
    Mr. Gowdy. My time is up, but I wonder if the gentleman 
from Virginia might be gracious enough to allow me to ask one 
more question.
    Mr. Scott. No objection.
    Mr. Gowdy. I don't want to get into the whole travel 
conference, I don't have enough time to do that other than to 
say there is a facility--it is not in my district, it is in 
South Carolina--called the NAC, it is run by a former Federal 
prosecutor, I guess she is still a Federal prosecutor, her name 
is Cami Chandler. She does a phenomenal job. I was there last 
week, first time I have been there as a nonprosecutor. Are we 
using that as much as we ought to be? Columbia may not be as 
glamorous as a city that starts with San, although I think it 
is, it may not be, I understand reasonable minds can differ on 
that. Are we using the NAC which is as a phenomenal resource as 
much as we should be using it?
    Ms. Robinson. Yes, actually I love the NAC. I have been 
there. The NAC--we do use that. It is actually booked almost 
all the time by the Executive Office of U.S. Attorneys, as I am 
sure you are familiar with as a former U.S. attorney. And we 
try to get in there more often, but it actually is booked 
almost all the time. But we do keep that in mind. And that is 
one of the things that we now are doing is actually--not just 
with the NAC--but we have a checklist that we are now requiring 
our staff at OJP to use to go down the checklist; for example, 
can this meeting be done by teleconference? Can it be done in a 
Federal facility? So the NAC is going to be on that list.
    Mr. Gowdy. Good. Thank you. The gentleman from Tennessee, 
Mr. Cohen.
    Mr. Cohen. Thank you, sir. First of all, I want to thank 
the Department, Ms. Robinson in particular, for all your 
efforts in coming to Memphis and other cities, I think Detroit 
is another, a National Forum for Youth Violence Prevention. 
Memphis was pleased to participate. Mr. Abt is almost a 
Memphian now, I think we have registered him to vote, taken his 
picture, all those things we have to do. It is a major success 
I think in bringing people together, the stakeholders and the 
community, and work together with youth violence, which Mr. 
Conyers was talking about, that is such a problem. I appreciate 
your reaching out to my office keeping me informed and 
involved. That has been very helpful.
    Mr. Conyers' questions were about the youth and losing the 
youth and particularly minority youth. And I thought Mr. Gowdy, 
who I have come to respect greatly since he has been on this 
Committee, I got to know him in Congress, was going there in 
the same area I was going. And I think when he asked you about 
some quote you made previously about discarding things that 
don't work and then suggesting that maybe there are certain 
programs that shouldn't be Federal and most I guess--I don't 
know how you phrased it, Mr. Gowdy, but it was that programs 
should be local and not Federal oftentimes. Many, many, many 
young people, particularly people of color, are arrested for 
possession of marijuana which shouldn't be a Federal issue. It 
should be a local issue, like Mr. Gowdy said. Let the locals 
decide whether they want to make that illegal or not and how 
they deal with it.
    I know the City of Chicago, some aldermen are introducing a 
decriminalization bill today. The whole program in this country 
with marijuana arrests has been a failure for 40 years. The 
public is against it. More of the public now is for 
decriminalization than is against it. Those numbers are simply 
going to grow.
    What is the Department of Justice doing to try to see that 
we don't continue to put scarlet letters on young people with 
arrests so they can't get jobs later, can't get maybe 
scholarships, get grants, loans in college and have the States 
make the decision to get the Federal Government out of in line 
with the Ron Paul-Barney Frank-et cetera bill.
    Ms. Robinson. On the general issue of reentry after 
convictions we have actually been doing a lot through our 
Prisoner Reentry Council. The whole issue of reintegration of 
people after they have been in the juvenile or criminal justice 
system is very top priority for Eric Holder as Attorney 
General. So we are working in concert with the Department of 
Labor and other parts of the government across the executive 
branch, both at the cabinet level and the agency staff level.
    Mr. Cohen. I know in the program you brought to Memphis 
there has been a holistic approach which I think is so needed. 
When you arrest a person and give them that scarlet letter and 
conviction from marijuana offense, it stays with them the rest 
of their life, and even if you go to labor, et cetera. There is 
Second Chances, but certain businesses wouldn't hire you if you 
have a felony offense, particularly for drugs. People can get 
all kind of jobs and be drunk as much as they want the night 
before. They can't if they smoke marijuana and that happens to 
maybe be in their system.
    Shouldn't this be an area the Department of Justice looks 
to make reform so we are not putting more young people at risk 
for not getting opportunities future?
    Ms. Robinson. No, the Administration has not taken that 
step at this point.
    Mr. Cohen. And do you think that--what does the 
Administration need to get to that step? Do they need some kind 
of consciousness training, do they need some scientists that 
maybe can give them some information or some pollsters that can 
tell them about the youth that they are losing and whatever 
they are losing? What do they need?
    Ms. Robinson. Well, I will be happy to raise this with my 
boss over there.
    Mr. Cohen. Do you know about Byrne grants? And there is a 
problem I have, I think Byrne grants, and this is something you 
could do.
    Ms. Robinson. Yes.
    Mr. Cohen. Byrne grants are given out to law enforcement 
agencies, and when they use them oftentimes to arrest people 
for marijuana possession, it is just a vicious cycle. They get 
the money, they use it, they confiscate monies, they get--
sometimes they get the proceeds of the arrest or the bust, and 
it is cash register justice.
    Shouldn't the Byrne grants be conditioned on maybe going 
after the drugs that cause people to become addicted, like 
cocaine and meth and crack and only allow the Byrne grant 
monies to be used for those type of drug offenses where people 
get addicted and then go out and rob and murder?
    Ms. Robinson. Currently, by law, the JAG Byrne funding is 
overwhelmingly formula grant funding, so those decisions are 
made at the State level.
    Mr. Cohen. Can you give us some statistics or would you get 
some statistics on how much they have used that for marijuana 
arrests, which I think you will find it shockingly high?
    Ms. Robinson. Yes. Yes, we can look at that. I actually 
would be surprised if it is that high, but we can certainly 
look at those statistics and get back to you with that 
information.
    Mr. Cohen. If I could have 1 more minute, Mr. Chair.
    Mr. Gowdy. Yes, sir.
    Mr. Cohen. Some people don't realize what is going on in 
the country, and we had a hearing, a discussion about a year 
ago, 2 years ago, and Mr. Rangel, who is a knowledgeable man, 
said, oh, they don't make marijuana possession arrests in New 
York, that doesn't happen. New York is the number one location 
in the country for marijuana possession arrests, and it is 
people of color, and it is part of the program they have got 
there, they use it as a law enforcement tool, and then they 
stigmatize the person forever.
    So I think you would be surprised, and I would like to ask 
you if your office can do a study on the number of people in 
the jurisdictions, maybe with this Byrne grant money, who have 
been arrested for marijuana possession or marijuana in general 
because, you know, while you do them in the way, you give this 
money out in a lump sum, I would submit that this 
Administration, General Holder, should have some direction to 
the locals on how to spend that money, and the direction should 
be to go after meth and crack and heroin. Those are drugs that 
cause people to be addicted and cause them to have to steal and 
rob and do violent acts to get their habit, their drug fed. 
They have got a monkey on their back, and that is their Jones, 
and they take it. Marijuana is not the problem. It is turning a 
whole generation of young people against the system, and that 
is something we can't afford.
    Ms. Robinson. Yes. We can, by the way, put policy guidance 
with the distribution of the money, even though we can't direct 
it under the current law.
    Mr. Cohen. Well, if you would look into putting that 
guidance in effect to let me know what guidance you might have 
done in the past or what you are looking for in the future.
    Ms. Robinson. Of course.
    Mr. Cohen. And I appreciate you, you are just phenomenal 
and do a great job. And so I started by praising Mr. Gowdy. I 
want to close by praising you.
    Ms. Robinson. Thank you so much.
    Mr. Gowdy. Thank the gentleman from Tennessee. The Chair 
would now recognize the gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank you. Thank you for being here. I want 
to touch on a couple different topics. Talk about the DNA 
initiative. Can you give me a sense of where the backlog is 
nationwide?
    Ms. Robinson. Of course.
    Mr. Chaffetz. Is it getting worse, is it getting better? 
Where is it at?
    Ms. Robinson. No, that is a very good question. I think it 
is helpful to think about the backlog as something with both a 
kind of front door and back door. We know that with the 
assistance of money that Congress has provided through the 
National Institute of Justice, we have been able to help States 
and localities build their capacity by about threefold over 
recent years, but at the same time new businesses come in the 
front door, and in many ways that is because criminal justice 
professionals have realized how helpful DNA is in solving 
cases, and it is not just in the traditionally violent crime 
cases.
    Mr. Chaffetz. Well, what degree of confidence do you have 
that these grants are actually being used for this? We have 
reports out of southern California in particular where this 
grant money was not being used to actually work on the DNA 
backlog. So what kind of oversight, what sort of assurance do 
you have that this money is actually going for its intended 
purpose?
    Ms. Robinson. We actually do have in many instances--may I 
ask what the specifics were about that?
    Mr. Chaffetz. Sure, I will be happy to give you the news 
reports out of southern California, Los Angeles County in 
particular, where the backlog has become so untenable and so 
big, they literally had trailers with refrigerators, just 
throwing them in there, and the money was not actually being 
used for this. I just want to make sure that DOJ is aware of 
this and that they are actually pursuing and making sure that 
the grant money actually goes for the intended purpose.
    Ms. Robinson. Yes, well, I am aware of the fact that some 
of the backlog in L.A. was in the police department as opposed 
to actually in the DNA lab where funding had gone, but we are 
happy to work with your staff on that.
    Mr. Chaffetz. The question is, how do you follow up and 
make sure that this money is actually being used for these 
intended purposes?
    Ms. Robinson. We do monitoring on all of these grants. We 
actually do desk audits on all of our grant funding.
    Mr. Chaffetz. If you have such--do you have--okay, I would 
like--if you have an audit on all of these, I would like a copy 
of that, please.
    Ms. Robinson. Yes.
    Mr. Chaffetz. Is that something you could provide me? How 
long? When will I get that?
    Ms. Robinson. We can get that to you within the next week 
to 10 days.
    Mr. Chaffetz. We will give you 14 days.
    Ms. Robinson. Maureen Henneberg.
    Mr. Chaffetz. We will give you 14 days. That sounds good.
    I need to move quickly. I want to go to the Southwest 
Border Prosecution Initiative. This is a program that, as I 
understand it, was never authorized. However, it received about 
$326 million. The Department has proposed that this program be 
eliminated. The funding of this is gone. Why would you 
eliminate this program?
    Ms. Robinson. We have been asked by Congress to recommend 
limited funding, to go down in funding, and this was an area 
that we had identified as one perhaps not to extend, and the 
reason was--in looking over the panoply of the 53 programs at 
OJP--that are in the reimbursement programs. These are not 
evidence-based programs. They are backward looking 
reimbursements, and when Mr. Gowdy had raised earlier, ``Are 
these programs that States and localities could fund'' we were 
trying--you know, every program that we have of the 53----
    Mr. Chaffetz. But, I mean, illegal immigration truly is the 
fault of the Federal Government, isn't that correct?
    Ms. Robinson. Yes, it is. Well----
    Mr. Chaffetz. I mean, the States are having to live with 
the consequences of the Federal Government not doing its job. 
We have not secured the border. I guess one of my concerns is, 
if you look at that and then you also look at the State 
criminal assistance, alien assistance program----
    Ms. Robinson. Right.
    Mr. Chaffetz. This went from--went into law in 1995, is 
authorized to receive $4.4 billion, yet the Administration is 
only requesting $136 million in fiscal year 2012. That is down 
from $950 million through 2011. So the question is 
prioritization from the Administration as to why we are 
severely looking at the assistance to the States that deal with 
the problem that was really created in the responsibility of 
the Federal Government.
    Ms. Robinson. You raise a good point. It is really a 
question of available dollars.
    Mr. Chaffetz. But why has the Administration not put this 
as a priority?
    Ms. Robinson. It is really a question of available dollars.
    Mr. Chaffetz. So you have a choice as to whether or not to 
reimburse these States, help the locals with dealing with the 
criminal alien population, and the Administration is making a 
very concerted effort to diminish those funds, put them down to 
a point where they are starting to approach zero, and that is 
one of my concerns, and I would love to learn more as to why 
you don't think that is a priority.
    Yield back the balance of my time.
    Mr. Gowdy. Thank the gentleman from Utah. The Chair would 
now recognize the gentleman from Puerto Rico, Mr. Pierluisi.
    Mr. Pierluisi. Thank you, Chairman. Welcome, Ms. Robinson.
    Ms. Robinson. Thank you.
    Mr. Pierluisi. The first thing I will say, and I will be 
brief about this, and not because it doesn't deserve more time, 
is that I should commend you because I know that you have had 
two stints at DOJ, and something happened in between which 
caused the ire of the Inspector General, and ever since you 
came back, now you are getting the praise of the Inspector 
General, and I get the sense that it has to do with the fact 
that you can even take pride of authorship or ownership of some 
of these programs, and it must have been pretty disappointing 
for you to see that these programs were being criticized and 
that could be endangered as a result of bad management 
practices. So I like, and I like what I hear, that now you are 
being praised for having better internal controls, and so on, 
like we should.
    Now, at times in this hearing it sounded like philosophical 
and, you know, why should the Federal Government get involved 
in this area and so on? Well, putting aside the law enforcement 
components of DOJ, FBI, DEA, and so on, in my view in this area 
the role of the Federal Government should be to be the promoter 
and supporter of best practices throughout America in the law 
enforcement area. It is as simple as that. This is one Nation, 
and when you identify best practices, you should be promoting 
States and local enforcement agencies to pursue them. It makes 
sense.
    Then technical support. That is key. And that is another 
fair area. It is fair game for the Federal Government to get 
involved in that. Now it troubles me that--I know we are going 
through fiscal constraints at the Federal level and at the 
local level, but, wow, what I have seen is a 25 percent cut in 
your programs in the last year.
    Ms. Robinson. Yes.
    Mr. Pierluisi. That is a huge cut. So I am concerned. When 
you face a cut so dramatic, the first thing that comes to my 
mind is priorities, and that is the first question I have for 
you. I mean, what are the areas of most need in your mind? What 
are your priorities in using the scarce resources you are being 
given?
    Ms. Robinson. Thank you so much for the question. The areas 
I see as the greatest priority are what I would call the 
evidence-based programs and areas like juvenile justice, areas 
like the law enforcement programs. I was just at the 
International Association of Chiefs of Police meeting in 
Chicago last week. Five thousand police chiefs from around the 
country. So many of them coming there, of course, on their own 
dime because their jurisdictions cannot pay for it, talking 
about the challenges they are facing in their local 
jurisdictions dealing with issues like gangs, like youth 
violence, like drugs, and having to do it with limited budgets, 
with sophisticated crime that crosses jurisdictions, and gangs 
that are dealing with very sophisticated technology in many 
instances, and they are doing it again on tightened budgets, 
and what they need from us, certainly grant money, but also 
know-how. They need smart-on-crime approaches. This is what 
they can't get in their local jurisdictions. So technical 
assistance, training, training on things like the ICAC task 
forces, you know, the Internet Crimes Against Children task 
forces, things like how to deal with a crime scene, things like 
how to deal with cold cases, and in the juvenile area. Mr. 
Scott referred to our conference on juvenile justice that we 
had. Again, we had juvenile justice professionals from around 
the country who came, paying their own way to get there because 
there was an opportunity to learn about how to deal with kids, 
whether it was in the mentoring area or on child protection. 
This is so important, to have Federal leadership.
    And Mr. Gowdy, in a way, this is what this is about, the 
Federal leadership, the appropriate Federal roles, this is what 
the program is really about, the appropriate Federal roles, 
what is it the Federal Government can add that is really the 
add-on that the States and localities can't or are unable to 
do. Building knowledge, spreading knowledge. The technical 
assistance and training. Certainly, the data collection. No one 
State or locality is going to collect national data. Those are 
the kinds of things. And then spreading that knowledge, and the 
kind of thing that I described with the DNA. Those 
advancements, the bulletproof vests invented and developed by 
LEAA, our predecessor agency. Those are the kinds of things 
that grow out of programs like this, the reentry work, reentry 
really invented out of OJP, that concept, that concept and the 
work that we are doing to spread it.
    So those are the things. So you start with that core and 
build out from that. Those are the things. It is about 
leadership.
    Mr. Pierluisi. Mr. Chairman, could I get just 1 minute? It 
is just to make a comment and see what reaction Ms. Robinson 
gives me.
    Mr. Gowdy. Without objection.
    Mr. Pierluisi. Thank you so much. The last I heard you were 
being criticized because apparently in coming up with proposals 
for areas in which there could be cuts, it appears that there 
is going to be a significant cut in immigration, in supporting 
local and--State and local law enforcement agencies in the area 
of immigration. But then the first thing that comes to my mind 
isn't a Federal responsibility to take care of our borders and 
to enforce our immigration laws? Shouldn't that be an area in 
which we are not really promoting State and local law 
enforcement agencies to do what we should be doing ourselves at 
the Federal level? Isn't that part of the reason why, in 
setting your priorities, you said, well, this is really our 
burden, so let's stop spending money for that purpose, to have 
the local law enforcement community assume it.
    Ms. Robinson. No, you raised a very good point.
    Mr. Pierluisi. But you don't want to comment further?
    Ms. Robinson. Well, I think that it is a very good point. I 
think that the way the program is structured makes it a 
difficult one to administer in many ways, but that is probably 
a longer conversation.
    Mr. Pierluisi. I hear you. By the way, you are cordially 
invited to visit Puerto Rico. I got envious when I heard that 
Congressman Cohen has had you over there, so please come see 
us.
    Ms. Robinson. Thank you.
    Mr. Gowdy. Thank the gentleman from Puerto Rico.
    Ms. Robinson, on behalf of all of us, we want to thank you 
for your testimony today. Without objection, all Members will 
have 5 legislative days to submit to the Chair additional 
written questions for the witness, which we will forward and 
ask the witness to respond to as promptly as she can so the 
answers may be made part of the record. Without objection, all 
Members will have 5 legislative days to submit any additional 
materials for inclusion of the record.
    With that, on behalf of all of us, we thank you for your 
presence and your testimony. The hearing is adjourned.
    Ms. Robinson. Thank you.
    [Whereupon, at 11:15 a.m., the Subcommittee was adjourned.]












                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
